                                 SENSITIVE BUT UNCLASSIFIED




                           UNITED STATES DEPARTMENT OF STATE
                       AND THE BROADCASTING BOARD OF GOVERNORS

                                    OFFICE OF INSPECTOR GENERAL

ISP-1.-13-43                                 Office of Inspections                  September 2013


MEMORANDUM
TO:                      CA - Janice Jacobs                         () _
FROM:                    OIG - Harold     w. Geise1~)1
SUBJECT:                 Review of Consular Wilberforce Compliance, lSP-I-13-43


Sum mary

       The Office of Inspector General reviewed compliance with the William Wilberforce
Trafficking Victims Protection Reauthorization Act during inspections of21 missions ' from
September 2012 through June 2013. The Act, established to combat trafficking in persons in the
United States, requires consular officers to inform employment and education nonimmigrant visa
applicants of their legal rights and make available resources related to trafficking. It also requires
consular sections to publicize those rights online and in a Wilberforce parnphlet.2 The review
found that all consular officers were aware of Wilberforce requirements. At all missions,
Wilberforce pamphlets were available online and in consular sections. Limitations in the
nonimmigrant visa search system prevented inspectors from confirming whether all relevant
applicants had been informed about Wilberforc·e protections. Many consular officers had not
completed the Wilberforce online training.

Findings

       Of the 21 missions surveyed, two (Juba and Minsk) had limited visa operations. Juba did
not process any nonimmigrant visas requiring Wilberforce information, and Minsk handled only
one such case. At the remaining 19 missions, all consular managers and adjudicating officers
were aware of Wilberforce requirements. AJ I consular managers stated they consistently briefed



1
    Attachment A shows the list of missions visited.
2
    Attachment B summa rizes the Act's requirements.

                                                       Page I of5

                                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

ISP-1-13-43                      Review of Consular Wilberforce Compliance              September 20 13


high-risk applicants- those applying for summer work and travel (SWT) J-1 visas and for B-1,
A-3, and G-5 (nanny/domestic employee) visas-on Wilberforce protections. Consular managers
were less sure that applicants applying for work visas for professional, high-paying jobs were
consistently advised of Wilberforce protections. Those individuals are considered less vulnerable
to trafficking in persons abuses.

        Two consular managers readily acknowledged that they could not confirm that all
relevant applicants had been advised of Wilberforce protections. The nonimmigrant visa system
does not include a mechanism for consular officers to note when they have briefed applicants on
Wilberforce protections; inspectors could not verify whether consular officers were making
interview notations when they briefed applicants on Wilberforce.

         ltzforma/ Recommendation 1: The Bureau of Consular Affairs should add a button to
         the nonimmigrant visa software for those categories of visas included under Wilberforce
         protections so that officers can confirm that an applicant has received Wilberforce
         information.

        At all missions, an English version of the Wilberforce pamphlet was available to
applicants online when they completed the online visa applications. Additionally, Wilberforce
pamphlets were available in all consular sections in the appropriate languages. Inspectors
observed pamphlets in Arabic, French, Khmer, Kurdish, Portuguese, Russian, Spanish, Tagalog,
and Ukrainian, in addition to English. Most missions provided Wilberforce information both
electronically and on paper. Eight posts provided local language versions on paper only.

         At five posts, all consular staff had completed online Wilberforce training; at the other 16
posts only some or none had completed training. Some consular managers were either unaware
of the training or unable to find it online. Completing online training would better inform
consular officers of Wilberforce requirements.

        Informal Recommendation 2: The Bureau of Consular Affairs should spotlight PC 406
online training onWilberforce requirements jn the next consular issues cable and provide a link
to the training on the bureau' s intranet site.

Additional Observations

    •    Ten posts handled more than 1,000 Wilberforce cases annually; nine handled between
         100 and 1,000, and two handled one or none.
    •    Three posts reported they briefed 100 percent of re.levant applicants, in addition to
         providing the pamphlet. Two posts counseled 10-25 percent, and 15 repo1ted counseling
         5 percent or fewer of relevant applicants, in addition to providing the pamphlet.
    •    Counseling at most posts took 1-5 m.jm1tes; three posts reported that it took 5-1 0 minutes.
         Eleven managers stated they used the same procedures for all visa categories; I 0
         managers indicated they followed different procedures for different categories (e.g.,
         nanny and SWT applicants). Those posts with the highest percentage of counseling were
         in countries with many ethnic minorities and language dialects, lower levels of education,
         and poor legal protections for domestic employees.

                                               Page 2 of5

                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

ISP-1-13-43                     Review of Consular Wilberforce Compliance                                            September 201 3



    •    Some applicants expressed surprise that foreign workers have rights in the United States.
    •    At some missions, either the applicant or the employer requested that the employer be
         present during the interview.

        I would be happy to meet with you to discuss this matter further, or your staff may
                                                                            [Redacted] (b) (2), [Redacted] (b) (6)
contact Robert Peterson, Assistant Inspector General for Inspections,
[Redacted] (b) (2), [Redacted] (b) (6)




                                               Page 3 ofS

                             SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED

ISP-1- 13-43           Review of Consular Wilberforce Comp liance   September 20 13



Appendix A: Missions Visited

Ahuja
Baghdad
Brasilia
Buenos Aires
Juba
Khartoum
Kyiv
Lagos
Manila
Minsk
Moscow
Phnom Penh
Rabat
Recife
Rio de Janeiro
Santiago
Sao Paolo
St. Petersbmg
Vilnius
Vladivostok
Yekaterinburg




                                      Page 4 of5

                    SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

ISP-I- I3-43                    Review of Consular Wiiberrorcc Compliance             September 20 I3



Appendix B: Background

        The William Wilberforce Trafficking Victims Protection Reauthorization Act of2008
(Pub. L. No. I I 0-457) requires consular officers to ensure that applicants for A-3, G-4, NAT0-7,
H, J, and 8-1 domestic visas have read and understood, or are briefed on, the contents of the
Wilberforce pamphlet. Section 202 of the Act requires that an informational pamphlet on the
legal rights and resources be available to "aliens applying for employment- or education-based
nonimmigrant visas." The pan1phlet must include:

    •    information regarding the nonimmigrant visa application process and employment
         portability;
    •    the legal rights of aliens holding nonimmigrant visas;
    •    labor and employment law;
    •    the illegal ity of slavery, peonage, trafficking in persons, sexual assault, extortion,
         blackmail, and worker exploitation in the United States;
    •    the legal rights of victims of trafficking and worker exploitation-including the right of
         access to immigrant and labor rights groups;
    •    the right to seek redress in U.S. courts;
    •    the right to report abuse without retaliation;
    •    the right not to relinquish his/her passport; the requirement for an employment contract;
         and,
    •    an explanation of the rights and protections included in the contract and nongovemmental
         organizations that provide services to victims of trafficking and exploitation.

        The legislation requires that the pamphlet be posted on the post Web site and that copies
be ava ilable to distribute as necessary. During the visa interview, the consular officer must
confirm that the applicant has received and understood the contents of the pamphlet. If the
applicant has not, the consular officer must provide the pamphlet and, in a language the applicant
understands, orally provide the information regarding legal rights and victim services, and
answer any questions the applicant may have. References include: 10 State 114980, 11 State
018463 , II State 009153,9 FAM 40.27and Notes for 9 FAM 41.21-22,24-25, 31, 53, 84, and
85.




                                              Pagc5or5

                            SENSITIVE BUT UNCLASSIFIED
